Shannen W. Coffin
202 429 6255
scoffin@steptoe.com
1330 Connecticut Avenue, NW
Washington, DC 20036-1795
202 429 3000 main
www.steptoe.com

June 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Indian River County et al. v. U.S. Dep’t of Transportation et al., No. 19-1304

Dear Mr. Harris:
I represent Respondent AAF Holdings LLC in the above-captioned case. The petition for
a writ of certiorari was filed on May 18, 2020, and placed on the Court’s docket on May 20, 2020.
The docket reflects that any brief in opposition is currently due on June 19, 2020.
Pursuant to Rule 30.4 and this Court’s March 19, 2020 Order regarding filing deadlines
during the COVID-19 public health crisis, we respectfully request a 30-day extension of time
within which to file the brief in opposition of AAF Holdings LLC to and including July 20, 2020.
This extension is justified because as new counsel to the matter in this Court, I require
additional time to familiarize myself with the record and arguments below and to prepare the brief
in opposition and need time to become familiar with the case. An extension is also required in
light of the disruption caused by the ongoing public health crisis, see March 19, 2020 Order, and
in light of the demands of other matters being handled by counsel. Finally, at least one amicus
curiae will be filing in support of the petition, and additional time will permit a coordinated
opposition that also addresses amicus’s arguments.

Petitioners do not object to the requested extension.
Sincerely,

Shannen W. Coffin
Counsel for Respondent
AAF Holdings LLC
cc:

Jeffrey A. Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com
Counsel for Petitioners
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for the Federal Respondents

